                                                       UNITED STATES DEPARTMENT OF COMMERCE
                                                       Office of Inspector General
                                                       Washington. D.C. 20230




AUGUST 5, 20 I0

MEMORANDUM FOR:               Scott Quehl
                              Chief Financial Officer and Assistant Secretary for Administration
                              Department]fC mmerce


FROM:                         Ann Eilers      frI/Yl
                                                     IJ
                                                     t·     e:/
                                                           CJ) er:S
                              Principal Assistant Inspector General for Audit and Evaluation

SUBJECT:                      Management of the Herbert C. Hoover Building Renovation
                              Final Report OAE-19885

This memorandum reports the findings from our review of the comprehensive renovation of the
Herbert C. Hoover Building (I-!CI-lB), the Department of Commerce's Washington, D.C.,
headquarters.
The renovation is being managed by the General Services Administration (GSA), but because the
Department and its operating units will be directly affected by the renovation, the Office of
Inspector General (OIG) plans to conduct an ongoing review of the project. As part of our
review, we will continue to monitor the progress of various projects critical to the success of the
renovation efforts, such as the consolidated server room and perimeter security. Such projects are
Commerce's largest monetary responsibilities during the early phases of the renovation, and
directly affect critical stages of construction. These topics may be addressed in greater detail in
future reports.
Our objective for this ilrst evaluation was to gain an understanding of the HCBB renovation
project and its project management plan to determine whether the project was being managed
effectively. To accomplish this, we evaluated project oversight mechanisms and project
management coordination efforts, identified project risks, and determined whether the renovation
is meeting its cost and schedule milestones. We also analyzed relevant documentation and
interviewed officials from GSA's Public Building Service; GSA's OIG; Commerce's Office of
Building Renovation (OBR); and Gilbane-Grunley Joint Venture (GGJV), the contractor for the
renovation. Our work was performed in accordance with the Quality Standards for Jl15pections
(January 2005) issued by the President's Council on Integrity and Efficiency and under authority
of the IG Act of 1978, as amended, and Department Organization Order 10-13 (August 2006).
As part of our inspection we reviewed project management documentation and project processes.
We also interviewed GGJV representatives, as well as GSA and DOC ofilcials, to assess project
oversight and management, costs, challenges, milestones, internal controls, and coordination
efforts with GSA. We noted that the management teams had implemented reasonable operating
procedures to ensure adequate oversight of the initial phases of the project.
However, as we will discuss further in this memorandum, we found two areas that may affect the
renovation’s progress: (1) Commerce’s OBR does not have a formal procedure in place for
tracking and reconciling reimbursable work authorizations (RWAs), and (2) concerns about
GSA’s calculation of Commerce’s rental rate still have not been addressed. We also found that
the Department will need to continue its oversight of the renovation in order to minimize
potential disruptions to employees’ comfort, health, and productivity.
Please accept our thanks for the courtesies shown to us during our fieldwork. If you have any
questions, please contact me at (202) 482-4832 or Leon Sampson at (202) 482-0535.

Background
Construction of the GSA-owned 1.8-million-
gross-square-foot building located at 1401
Constitution Avenue, NW, in Washington, D.C.,
was completed in 1932. The structure, originally
called the Department of Commerce Building,
was renamed the Herbert C. Hoover Building in
1981. HCHB has undergone only limited
upgrades, but in January 2008 GSA began an
extensive 8-phase modernization and renovation
project (see table 1 for an outline of the scope of
work). The renovation, which is scheduled for
                                                        Source: Department of Commerce Web site
completion in 2021, will upgrade mechanical,
electrical, and life-safety systems; increase usable space; improve energy and environmental
efficiency; and incorporate security improvements. The renovation makes HCHB one of the final
buildings in the Federal Triangle area to be modernized.


                   Table 1. HCHB Renovation Scope of Work

Phasea             Activities

                   Replace air-conditioning system cooling towers. Build the swing space to
Phase 1
                   house staff while future phases of the building renovation are in progress.
                   Interior and exterior renovationsb will encompass Corridor 1 along Constitution
                   Avenue. Phase 2 also includes building facade restoration and site utilities
Phase 2
                   replacement around the entire building, as well as development of a staging
                   area for moving construction materials.
                   Interior and exterior flat roof renovations will encompass Corridor 2 (second
Phase 3
                   corridor north of Constitution Avenue).
Phase 4            Interior and flat roof renovations will encompass Corridor 3.
Phase 5            Interior and flat roof renovations will encompass Corridor 4.




                                                 2
    Phasea             Activities

    Phase 6            Interior and flat roof renovations will encompass Corridor 5.
    Phase 7            Interior and flat roof renovations will encompass Corridor 6.
  Phase 8            Interior and exterior renovations will encompass Corridor 7.
Source: OIG, based on information from GSA 

a
  Each phase is planned to last approximately 18 months. All phases are subject to schedule changes.

b
 Renovations for all corridors include new mechanical, electrical, and plumbing systems, and 

architectural finishes.



GSA is managing the estimated $960 million contract awarded to GGJV to complete the
renovation. GSA’s Federal Building Fund (FBF), the primary financial contributor to the project,
received $225.6 million from the American Recovery and Reinvestment Act of 2009 (ARRA) to
fund phases 2 and 3 of HCHB’s renovation. Table 2 illustrates the funding sources for the project
and their contributions.


                      Table 2. HCHB Renovation Project Funding
                                                              Amount         Percentage
              Source of Funding
                                                           (in millions)     of Funding
              GSA/Federal Building Fund                          $ 605.0               63.2
              ARRA funds                                           225.6               23.5
              Commerce’s estimated contribution a                  128.0               13.3

              Total Estimated Project Cost                       $ 958.6               100
              Source: OIG
              a
                  Commerce’s projected funding contribution is dependent upon annual
                  congressional appropriations.


In recent years, GSA’s OIG has audited both FBF and the Public Building Service and identified
several areas of concern. For example, the Public Building Service has not fully developed a
comprehensive strategy for building and renovation projects, nor has it established a means of
assigning priorities among competing projects. FBF needs to review its planning process for
building projects nationwide. And finally, deficiencies were identified in GSA’s internal controls
over financial reporting and information technology.
These issues may also affect the progress of HCHB’s renovation. The project is being reviewed
by GSA’s OIG as part of its ARRA oversight, and Commerce’s OIG is coordinating with GSA’s
OIG to better define our respective roles and responsibilities for the renovation oversight efforts.




                                                     3

The tenants of HCHB are directly affected by this renovation and modernization project;
however, they have very limited control over project management or over decisions that will
have an impact on them. This creates a challenge that requires open and active participation of
all stakeholders. As part of the renovation’s Integrating Integrated Project Team (IIPT),1
Commerce is working closely with GSA as an advocate for the bureaus and operating units
housed at HCHB with respect to space requirements, building services, and improvements.


Commerce Is Taking an Active Role in Managing the Renovation Project
Implementing the IIPT, communicating with representatives from Commerce’s operating units
(see figure 1), using the renovation information and guidance provided to each operating unit by
GSA, and holding weekly coordination meetings are some of the activities Commerce has
employed to manage the HCHB renovation project.


                          Figure 1. Commerce Operating Units


•   Office of the Secretary                                •	 Minority Business Development Agency

•	 Bureau of Economic Analysis                           •    National Institute of Standards &
                                                              Technology
•   Bureau of Industry & Security
                                                         •    National Oceanic & Atmospheric
•   Economic Development Administration 	                     Administration

•	 Economics & Statistics Administration                 •    National Telecommunications &
                                                              Information Administration
•   International Trade Administration
                                                         •    Patent & Trademark Office
Source: Department of Commerce, Office of Building Renovation


Conversely, the Department’s limited management control over the construction activities, as
well as the construction’s potential impacts on the operating units’ abilities to achieve their
missions, is a concern. Traditionally, effective management of the time and costs associated with
large-scale federal construction projects has been difficult. Given Commerce’s limited role in the
project, the Department will need to continue to work closely with the operating units to assist in
resolving issues as they arise. Commerce must also monitor GSA’s activities carefully to ensure
that employees are not negatively affected by the renovation. The Department will need
dedicated personnel and financial resources and extensive coordination with GSA and GGJV
throughout the project’s lifecycle to ensure the success of the renovation.



1
 The IIPT is a group of key stakeholders from GSA, Commerce, and GGJV, formed to address construction issues
as they arise.  


                                                      4

Phase 1 of the project was completed on time and within budget. Phase 2 is currently underway.
All parties involved must continue to work diligently toward the success of the renovation and
promptly identify areas of concern that may hinder it. The following sections describe issues we
noted during our evaluation that may affect the project’s successful completion.


The Office of Building Renovation Lacks an Efficient Procedure for Processing
Reimbursable Work Authorizations
RWAs are used by GSA to capture costs and bill customers for altering, renovating, repairing, or
providing services in GSA-managed space over and above the basic operations financed through
rent. GSA uses RWAs to invoice the Department for its share of expenses related to the
renovation project via the Intra-Governmental Payment and Collection (IPAC) system.
Commerce’s OBR originates and processes renovation-related RWAs. RWAs are then forwarded
to the Department’s Office of Executive Budgeting (OEB) to confirm the availability of funds,
and Administrative Services for certification. Finally, the RWA and supporting documentation
are forwarded to the National Institute of Standards and Technology (NIST) to record the
obligation.
Officials in OBR stated that the RWAs and related data are not routinely reconciled to project-
related records for accuracy and prompt payment. Therefore, there is a potential risk that cost
information may not be fully and accurately captured.
The Government Accountability Office’s (GAO) Standards for Internal Control in the Federal
Government, GAO/AIMD-00-21.3.1, provides the definition, objectives, and fundamental
concepts for federal internal control standards. 2 As described, internal controls are an integral
component of an organization’s management that provides reasonable assurance that the
following objectives are being achieved:
    •   effectiveness and efficiency of operations,
    •   reliability of financial reporting, and
    •   compliance with applicable laws and regulations.3
While the transaction volume and dollar values of RWAs for the renovations are currently low,
both will increase significantly as the renovation progresses. Reasonable control activities can
help ensure accurate and timely recording of transactions and events; access restrictions to and
accountability for resources and records; and appropriate documentation of transactions and
internal control.4 The Department’s current RWA processes do not meet this standard.


Recommendation
We recommend that the directors for Administrative Services and Financial Management work
with GSA to develop a process and a written policy for tracking and reconciling renovation-
related RWAs.

2
  GAO. Standards for Internal Control in the Federal Government. GAO/AIMD-00-21.3.1 (1999), p. 4.

3
  Id. at 5. 

4
  Id. at 15.  



                                                      5

GSA and the Department Have Not Reached a Formal Agreement on the Improvement
Rental Rate
The Department currently remits approximately $2.25 million per month to GSA in rental
expenses for the use of HCHB. This rate increases as phases of the construction project are
completed, and is adjusted by GSA to reflect the costs associated with any improvements
requested by the Department.
GSA’s total rental rate is based upon tenant improvements and operating expenses, as well as a
base rental rate (which is calculated using third-party market appraisals). The proposed rental
rate included monies to be amortized from improvements funded by FBF and monies received
from ARRA to pay for construction related to phases 2 and 3 of the renovation project.
However, the opinion of the Department’s Real Estate Division is that the rental rate should be
comprised solely of the FBF funds and should not include any tenant improvements from ARRA
funds. Officials from the Real Estate Division stated that the intent of the ARRA appropriation is
to fund phases 2 and 3 of the renovation project, and that it is separate and apart from FBF’s
annual appropriation. Also, the most recent occupancy agreement between Commerce and GSA
did not specify that ARRA monies would be included in the rental rate; therefore, the rate should
reflect only the funds from FBF. After more than a year, GSA and Commerce have not reached a
final decision and formalized an agreement on the rental rate calculation.


Recommendation
We recommend that the Associate Director for Administrative Services seek confirmation of
GSA’s decision as soon as possible, in order to allow the Department the time it needs to make
appropriate adjustments to its rental budget.


Other Issues
After we completed our fieldwork, OIG became aware of health complaints from Commerce
staff occupying the renovation swing space. An inspection on swing space level A was
conducted by an Occupational Safety and Health Administration (OSHA) compliance safety
officer. The safety officer concluded that the complaints raised were related to indoor air quality
and temperature (being too hot or too cold), which are not regulated by OSHA. It was suggested
that the Department continue to work with the National Institute of Occupation Safety and
Health concerning its existing request for a health hazard evaluation of the swing space.
 Although the matter falls outside the original scope of this evaluation, OIG will continue to
monitor the situation and may address these concerns in future reports.


Stakeholder Comments and OIG Response
In response to our draft memorandum, OIG received comments from GSA and Commerce’s
Office of Chief Financial Officer and Assistant Secretary for Administration. GSA stated that it
has been addressing tenants’ health complaints by monitoring water and indoor air quality in the
HCHB swing space. We have included comments from the commissioner and regional


                                                 6

commissioner of GSA’s Public Buildings Service as attachment A. The Department did not
dispute our findings, but did provide several edits that we have incorporated into this final report.
Regarding our recommendation about renovation-related RWAs, Commerce said that the
Director for Administrative Services is working with the Department’s Office of Financial
Management and GSA to improve the overall RWA process. As part of these improvements,
OBR, the Office of Executive Budgeting, and the National Institute of Standards and Technology
developed a system for tracking expenditures. In addition, GSA is now helping to reconcile
Intra-Governmental Payment and Collection transactions to RWA amendments every month.
The Department and GSA plan to work together to improve GSA’s monthly reporting of
renovation-related RWAs.
GSA confirmed that any tenant improvement work funded by ARRA will not be amortized into
the rental rate, although it said that improved building security will be. GSA is in the process of
revising the occupancy agreement to bill for the renovation swing space as well as adjusting the
current occupancy agreement for space vacated in the building because of the renovation. We are
encouraged that the Department of Commerce and GSA are taking actions to address our
recommendations, and we look forward to receiving the specific details and results of the
activities the Department and GSA have taken and planned.



cc: 	   Lisa Casias, Chief Financial Officer, Department of Commerce
        Mary Pleffner, Director, Office of Administration, Department of Commerce
        Diane Haeger, Resolution Officer, Office of the Secretary, Department of Commerce
        Lawrence Hess, Associate Director, Office of Building Renovation, Department of
        Commerce
        Trudy Anne Gallic, Audit Liaison Officer, Office of the Secretary, Department of
        Commerce
        Tyrone A. Anderson, HCHB Project Executive, General Services Administration




                                                 7

                            Attachment A – Stakeholder Comments




••
JUL ! 4 2010
                                                                  GSA Public Buildings Service



The Honorable Todd J. Zinser
Inspector General
U.S. Department of Commerce
Washington, DC 20230

Dear Mr. Zinser:

GSA's Public Buildings Service appreciates the opportunity to comment on the draft audit
report titled "OAE-19885-Management of the Herbert C. Hoover Building Renovation."

The objective of this audit was for your office to gain an understanding of the Hoover Building
renovation project and its project management plan, as well as to detennine whether the
project was being managed effectively. Commerce plans to conduct an ongoing review of
the project because its operating units will be directly affected by the renovation. GSA's
Inspector General is coordinating with your office to better define the roles and
responsibilities for the renovation oversight efforts.

The system renovation will occur in eight phases and will be completed in 2021. Phase I
was substantially completed in October 2009. Phase 2 is underway, and Phase 3 is
projected to be completed in June 2013. Phases 2 and 3 have received funding from the
American Recovery and Reinvestment Act (ARRA).

The audit report is directed to DOC management; however, the following findings were
directed at GSA, as follows:

      •    GSA and DOC have not reached a formal agreement on the improvement rental
           rate;
      •    Health complaints have been received from the DOC staff occupying the renovation
           swing space; and,
      •    Prior audits by GSA's GIG on the FBF and on GSA's planning process identified
           areas of concern, which may affect the progress of renovation.

Accordingly we offer the enclosed comments in response.
                I




sekA,~~
Robert A. Peck
Commissioner

Enclosure

cc:       The Honorable Brian J. Miller, GSA Inspector General
          Theodore Steheney, GSA Assistant Inspector General for Auditing
                                                                  U.S. Ganeml Services Administralion
                                                                  1800 F Street, NW
                                                                  W"shlnglol1, DC 20405-0002
                                                                  www.gsagov
GSA and DOC have not reached a formal agreement on the improvement rental
rate.

Prior to the ARRA funding for Phases 2 and 3, GSA provided an Occupancy Agreement
(OA) in 2007 to DOC. This OA included a pro forma schedule with projected rental rates
and details related to the cost of tenant improvements and ~ecurity fixtures and equipment
to be amortized into the rent. The components of the rent bill and how the rental rate is
developed and calculated have been explained to DOC and its 01G. The DOC OIG is
correct that any tenant improvement work funded by ARRA will not be amortized in the
rent. However, at this time, any ARRA funds used to improve building security are to be
amortized in the rent. GSA is preparing an OA to bill for the newly renovated space in
Phase 1 using 2007 appraisal rates. This OA will include amortization for Tenant
Improvements based on allowances for DOC. GSA will also revise the current OA in place
to adjust for the space vacated in the building prior to the start of Phase 2. At the end of
Phases 2 and 3, no amounts will be billed for Tenant Improvements.

Health complaints from the DOC staff occupying the renovated swing space.

The GSA project team is aware of the health complaints from DOC staff, and is working
with DOC to manage this issue. The project team has taken every necessary precaution
during hazmat abatement and construction of the swing space. Prior to DOC moving into
the swing space, GSA conducted water and indoor air quality testing (Volatile Organic
Compounds, particulates and fonnaldehyde) and all tests were negative. GSA has further
conducted electric and magnetic field and radon testing, with all testing results being
negative. These test results have been forwarded to DOC.

Prior audits by GSA's OIG on the FBF and on GSA's planning process will
affect the progress of renovation.

Prior audits by the GSA OIG of the Federal Buildings Fund (FBF) and the planning
process identified areas of concerns; GSA has been addressing those areas. As you
know, the FBF is a revolving fund that finances the Public Buildings Service real property
management and related activities such as the operation, maintenance and repair of GSA's
public buildings, and the construction of federal buildings and courthouses through the
collection of rental charges. The FBF cannot support all the repair and alteration needs of
an aging inventory, as well as provide funding for new construction to meet the needs of our
customers. As such, GSA must prioritize all requests that compete for the limited funds. .
GSA has new initiatives and strategies to lower operating costs and become more efficient,
which will strengthen the FBF and allow GSA to continue meeting the needs of the Federal
customer.

Finally, the draft report stated that the Commerce contribution to the project is subject to
Commerce receiving the necessary appropriations. If Commerce does not receive funds to
support the additional costs and tenant requested changes to the contract, that portion of
the work will not be perfonned.
11	                                                       GSA National Capital Region




  JUl -2    am
MEMORANDUM FOR:	 ROBERT PECK
                 COMMISSIONER
                 PUBLIC BUILDINGS SERVICE (P)

FROM:                    BART~':HOMMISSIONER
                                 ~
                         REGIO
                         PUBLI        ,INGS SERVICE (WP)

SUBJECT:	                Draft audit report OAE-19885-Management
                         of the Herbert C, Hoover Building Renovation


The objective of this audit was for the Department of Commerce (DOC) Office of
Inspector General (OIG) to gain an understanding of the Herbert C, Hoover Building
(HCHB) renovation project and its project management plan, as well as to determine
whether the project was being managed effectively, The DOC OIG plans to conduct
an ongoing review of the project because the DOC operating units will be directly
affected by the renovation, Their OIG is coordinating with the GSA OIG to better
define the roles and responsibilities for the renovation oversight efforts,


The system renovation will occur in eight phases and will be completed in 2021,
Phase I was substantially completed in October 2009, Phase 2 is underway and
Phase 3 is projected to be completed in June 2013. Phases 2 and 3 have received
funding from the American Recovery and Reinvestment Act (ARRA).

The audit report is directed to DOC management; however, the following findings were
directed at GSA, as follows:

   •	 GSA and DOC have not reached a formal agreement on the improvement
      rental rate;
   •	 Health complaints have been received from the DOC staff occupying the

      renovation swing space; and

   •	 Prior audits by GSA's OIG on the FBF and on GSA's planning process

      identified areas of concern which may affect the progress of renovation.

I offer the following comments in response.



                                                          U.S. General Services Administration
                                                          301 7th Street, SW
                                                          Washington, DC 20407-00::11
                                                          www.gsa.gov
GSA and DOC have not reached a formal agreement on the improvement rental
rate.
Prior to the ARRA funding for phases 2 and 3, GSA provided an Occupancy
Agreement (OA) in 2007 to DOC. This OA included a proforma schedule with
projected rental rates and details related to the cost of tenant improvements and
security fixtures and equipment to be amortized into the rent. The components of the
rent bill and how the rental rate is developed and calculated have been explained to
DOC and their DIG. The DOC DIG is correct that any tenant improvement work
funded by ARRA will not be amortized in the rent. Guidance was received this spring
from GSA Central Office on this. However, at this time, any ARRA funds used to
improve building security are to be amortized in the rent. GSA is preparing an OA to
bill for the newly-renovated space in Phase 1 using 2007 appraisal rates. This OA will
include amortization for Tenant Improvements based on allowances for DOC. GSA
will also revise the current OA in place to adjust for the space vacated in the building
prior to the start of Phase 2. At the end of Phases 2 and 3, no amounts will be billed
for Tenant Improvements.

Health complaints from the DOC staff occupying the renovated swing space
The GSA project team is aware of the health complaints from DOC staff, and is
working with DOC to manage this issue. The project team has taken every necessary
precaution during hazmat abatement and construction of the swing space. Prior to
DOC moving into the swing space, GSA conducted water and indoor air quality testing
(Volatile Organic Compounds, particulates and formaldehyde) and all tests were
negative. GSA has further conducted electric and magnetic field and radon testing,
with all testing results being negative. These test results have been forwarded to
DOC.

Prior audits by GSA's OIG on the FBF and on GSA's planning process will affect
the progress of renovation.
Prior audits by the GSA DIG of the Federal Buildings Fund (FBF) and the planning
process identified areas of concerns; GSA has been addressing those areas. As you
know, the FBF is a revolving fund that finances the Public Buildings Service real
property management and related activities; such as the operation, maintenance and
repair of GSA-owned buildings, and the construction of federal buildings and
courthouses through the collection of rental charges. The FBF cannot support all the
repair and alteration needs of an aging inventory, as well as provide funding for new
construction to meet the needs of our customers. As such, GSA must prioritize all
requests which compete for the limited funds. GSA has new initiatives and strategies
to lower operating costs and become more efficient, which will strengthen the FBF and
allow GSA to continue meeting the needs of the Federal customer.

Finally, the draft report stated that the Commerce contribution to the project is subject
to Commerce receiving the necessary appropriations. If Commerce does not receive
funds to support the additional costs and tenant requested changes to the contract,
that portion of the work will not be performed.
